     DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                       Office of Audit Services, Region V
                                                                       233 North Michigan Avenue
                                                                       Suite 1360
                                                                       Chicago, IL 60601
May 12, 2010



Report Number: A-05-08-00053

Mr. Daniel Houston
President
Houston Companies, Inc.
1481 South Grant Avenue
Crawfordsville, IN 47933

Dear Mr. Houston:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Houston Companies Medicaid Cost Reports for
Calendar Years 2003, 2004, and 2005. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Lynn Barker, Audit Manager, at (317) 226-7833 ext 21 or through email at
Lynn.Barker@oig.hhs.gov. Please refer to report number A-05-08-00053 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Daniel Houston


Direct Reply to HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601


cc:
Ms. Pat Nolting, Reimbursement Manager
Indiana Family and Social Services Administration
Office of Medicaid Policy and Planning
402 West Washington Street, Room W382
Indianapolis, IN 46204
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




  REVIEW OF HOUSTON COMPANIES
    MEDICAID COST REPORTS FOR
CALENDAR YEARS 2003, 2004, AND 2005




                         Daniel R. Levinson
                          Inspector General

                             May 2010
                           A-05-08-00053
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Indiana, the Indiana Family and Social
Services Administration, Office of Medicaid Policy and Planning (State agency) administers the
Medicaid program.

The Indiana Administrative Code (IAC) describes the Medicaid costs that are allowable under
the Indiana Medicaid State plan and requires that providers report these costs to the State agency
on annual financial reports. If an audit determines that the provider’s records do not support cost
data submitted to the State agency, appropriate adjustments to the financial reports can be made.
The State agency uses the financial reports to establish reimbursement rates.

Houston Companies, Inc. (Houston), a private for-profit organization, owned and operated seven
facilities that received Medicaid funding including two nursing homes, five group homes, and a
pharmacy located in Crawfordsville and Lebanon, Indiana during calendar years (CY) 2003
through 2005. Houston reported costs totaling $37.7 million on Medicaid financial reports for
the nursing homes, group homes, and home office during CYs 2003 through 2005.

OBJECTIVE

Our objective was to determine whether Houston’s Medicaid financial reports for CYs 2003
through 2005 accurately reflected costs that were in accordance with Federal and State
requirements.

SUMMARY OF FINDINGS

Houston’s Medicaid financial reports for CYs 2003 through 2005 did not accurately reflect costs
that were in accordance with Federal and State requirements. Houston did not accurately report
costs totaling $194,407 on its nursing and group homes and home office financial reports.
Specifically, Houston:

   •   reported $115,544 in unallowable costs,

   •   reported $52,696 for costs that were not allocable because they were not related to patient
       care, and

   •   misclassified reported costs totaling $16,986 and did not report allowable costs totaling
       $9,181 due to clerical errors.


                                                 i
In addition, Houston’s financial reports included potentially unallowable related-party
transactions totaling $268,808 for a markup of actual costs for oxygen purchased from its
pharmacy.

The financial reports were inaccurate because Houston did not implement sufficient internal
controls and procedures to ensure that it reported Medicaid costs that were properly classified
and in compliance with Federal and State requirements.

RECOMMENDATIONS

We recommend that Houston:

   •   submit revised Medicaid financial reports for its nursing homes for CYs 2003 through
       2005 and group homes for CY 2004 to the State agency that:

           o reduce costs by $168,240 that were not allowable and allocable,

           o reclassify costs totaling $16,986, and

           o report $9,181 in allowable costs;

   •   work with the State agency and CMS to determine whether the potentially unallowable
       related-party transactions should reflect actual costs, thereby reducing reported costs by
       $268,808; and

   •   implement internal controls and procedures to ensure that Medicaid financial reports
       include costs that are properly classified and in accordance with Federal and State
       requirements.

AUDITEE COMMENTS

In written comments on our draft report, Houston generally disagreed with our findings and said
that it will determine whether it is necessary to submit revised financial reports.

Houston’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Houston’s written comments, we maintain that our findings and
recommendations are valid; however, we moved the unreported Medicare Part A therapy
revenues to Other Matters, revised subheadings and cost classifications for two findings and
reduced unallowable costs by $2,087.




                                                 ii
OTHER MATTERS

Houston did not report $1.5 million in Medicare Part A revenue related to physical, speech and
occupational therapies on its nursing homes financial reports. State Medicaid financial report
instructions (guidance) require providers to report therapy revenue by actual payor source
including Medicare. The regulations at 405 IAC 1-14.6-20(b) state that the State agency or its
contractor makes an adjustment to remove costs attributable to non-Medicaid therapy services
based on an allocation of reported therapy revenues. However, the statute at Indiana Code (IC)
12-15-14-2(b) states that the State agency may not require a provider to submit non-Medicaid
revenue information in the provider’s annual historical financial report. While this revenue
information may be obtained through audits, it may not be used for public reporting purposes.
The statute conflicts with both the regulations and guidance. Since the statute takes precedence
over regulations and guidance, we cannot recommend Houston report $1.5 million in Medicare
Part A revenues on its financial reports.




                                               iii
                                                        TABLE OF CONTENTS
                                                                                                                                           Page

INTRODUCTION..........................................................................................................................1

     BACKGROUND .......................................................................................................................1
       Federal Requirements .........................................................................................................1
       Indiana Administrative Code Requirements .......................................................................1
       Houston Companies Organizational and Corporate Structure ............................................2

     OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................................2
        Objective .............................................................................................................................2
        Scope ...................................................................................................................................2
        Methodology .......................................................................................................................3

FINDINGS AND RECOMMENDATIONS.................................................................................4

     UNALLOWABLE COSTS .......................................................................................................4
          Federal and State Requirements ...................................................................................4
          Unallowable Costs Reported ........................................................................................5

     COSTS NOT ALLOCABLE AND RELATED TO PATIENT CARE ....................................6
           State Requirements .......................................................................................................6
           Costs Not Allocable to Medicaid-Related Facilities and Activities .............................6

     MISCLASSIFIED REPORTED COSTS AND UNREPORTED COSTS ................................9
          State Requirements .......................................................................................................9
          Misclassified and Unreported Costs .............................................................................9

     POTENTIALLY UNALLOWABLE RELATED-PARTY TRANSACTIONS .......................10
          State Requirements .......................................................................................................10
          Oxygen Purchases ........................................................................................................10

     HOUSTON INTERNAL CONTROLS .....................................................................................11

     RECOMMENDATIONS ..........................................................................................................11

     OTHER MATTERS ..................................................................................................................11

     AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ............12
          Unallowable Costs........................................................................................................12
          Costs Not Allocable and Related to Patient Care .........................................................12
          Potentially Unallowable Related-Party Transactions ...................................................14
          Unreported Part A Revenues ........................................................................................15

APPENDIX

     AUDITEE COMMENTS




                                                                             iv
                                        INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Indiana, the Indiana Family and Social
Services Administration, Office of Medicaid Policy and Planning (State agency) administers the
Medicaid program.

Federal Requirements

Section 1902(a)(30)(A) of the Social Security Act (the Act)) requires that states assure that
payments to providers are “consistent with efficiency, economy and quality of care . . . “
Section 1902(a)(13)(A) of the Act) also requires that a public process be used to determine rates
for institutional providers such as nursing homes. Finally, section 1902(a)(27) of the Act
requires that States enter into provider agreements that require providers to keep such records as
are necessary to document the services provided to Medicaid beneficiaries.

Indiana Administrative Code Requirements

The Indiana Administrative Code (IAC) establishes the requirements for providers to report
income and expenses on annual Medicaid financial reports. 405 IAC 1-12 covers the rate-setting
criteria for group homes. 405 IAC 1-14.6 covers the rate-setting criteria for nursing facilities.
Pursuant to 405 IAC 1-12-10(c) and 405 IAC 1-14.6-10(b), providers report as patient care costs
only those costs incurred while providing patient care services. Providers certify that costs not
related to patient care were separately identified on the financial report. Pursuant to 405 IAC 1-
12-4(a) and 405 IAC 1-14.6-4, each provider shall submit an annual financial report to the State
agency.

Pursuant to 405 IAC 1-12-3(f) and 405 IAC 1-14.6-3(f), providers must file a home office
financial report annually that reports home office costs, if the provider has multiple facilities or is
part of a parent organization. Allocated costs that are incurred at a home office must be properly
recorded and submitted on the home office financial report in order to be included on other
facilities’ financial reports. The State agency uses the financial reports to establish
reimbursement rates for nursing homes and group homes throughout the State of Indiana.
However, each provider has its own reimbursement rate based on the financial report filed with
the State agency.

Pursuant to 405 IAC 1-12-3(b) and 405 IAC 1-14.6-3(b), a provider must maintain financial
records for a period of 3 years after the date of submission of financial reports to the State
agency. The provider’s accounting records must establish an audit trail to the financial reports
submitted to the State agency. Pursuant to 405 IAC 1-12-3(c) and 405 IAC 1-14.6-3(c), if an


                                                  1
audit determines that the provider’s records do not support cost data submitted to the State
agency, the State agency must present the provider with a list of deficiencies and give the
provider 60 days to correct the deficiencies. If the provider fails to correct the deficiencies
within the 60 day period the State agency may make appropriate adjustments to the financial
reports.

Houston Companies Organizational and Corporate Structure

Houston Companies, Inc. (Houston), a private for-profit company, owned and operated seven
facilities that received Medicaid funding including two nursing homes and five group homes
during calendar years (CY) 2003 to 2005, as well as a home office. Houston is comprised of the
following five corporations:

   •    Houston Companies, Inc. (Home Office) is the home office located in Crawfordsville,
        Indiana.
   •    DHE, Inc., doing business as Ben Hur nursing home (Ben Hur), is a Medicaid-related
        nursing home located in Crawfordsville, Indiana.
   •    Houston Development, Inc., doing business as Williamsburg nursing home
        (Williamsburg), is a Medicaid-related nursing home located in Crawfordsville, Indiana.
   •    Houston Group Homes, Inc. consists of five group homes including Cedar Pointe, located
        in Lebanon, Indiana; Market Hall, located in Crawfordsville, Indiana; Penn Hall, located
        in Crawfordsville, Indiana; Pine Ridge, located in Lebanon, Indiana; and White Hall,
        located in Crawfordsville, Indiana.
   •    Village Drug Store, Inc. (Village Drug Store) located in Crawfordsville, Indiana, supplies
        prescription drugs and other medical supplies primarily to Houston’s nursing homes and
        group homes and their patients.

Houston submitted annual Medicaid financial reports for the home office, nursing homes, and
group homes during CYs 2003 through 2005. During this period, Houston reported Medicaid
costs totaling $37.7 million.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Houston’s Medicaid financial reports for CYs 2003
through 2005 accurately reflected costs that were in accordance with Federal and State
requirements.

Scope

We reviewed Houston’s nursing homes (Ben Hur and Williamsburg) and home office Medicaid
financial reports which identified costs totaling $31.7 million for CYs 2003 through 2005. We
limited our review of group homes (Cedar Pointe, Market Hall, Penn Hall, Pine Ridge, and
White Hall) to Medicaid financial reports that identified costs totaling $2 million for CY 2004



                                                 2
because the 2004 financial reports were the only reports used by the State agency to recalculate
Medicaid rates during the audit period.

We limited our internal control review to Houston’s policies, procedures, and controls over
reporting revenues and costs reported on the Medicaid financial reports for CYs 2003 through
2005.

We performed fieldwork at Houston’s home office in Crawfordsville, Indiana.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal and State laws, regulations, and guidelines;

    •    reviewed Houston’s policies and procedures related to reporting revenues and Medicaid
         expenses on its financial reports;

    •    reconciled the financial reports to supporting documentation and accounting records for
         CYs 2003 through 2005;

    •    interviewed Houston officials and State agency representatives to identify and understand
         policies and procedures for completing and reviewing Medicaid financial reports;

    •    traced judgmentally selected transactions totaling $3,356,979 to payroll reports, canceled
         checks, timesheets, pay notices, vouchers, invoices, and other supporting documentation;

    •    reviewed bonuses and hours worked summaries to determine if bonuses and hours paid
         were in accordance with Houston’s policy;

    •    used Medicare claims payment information to summarize the covered therapy services by
         therapy revenue codes and facility to determine whether the Medicare Part A revenue
         was reported on the Medicaid Financial Report, Schedule D, as required; 1

    •    reviewed the details of the related-party transactions, including the State agency letter
         approving the related-party exception for the Village Drug Store;

    •    compared the oxygen expenses in the Village Drug Store accounting records to the
         oxygen expenses in the nursing homes’ accounting records to calculate the markup on
         oxygen provided by the Village Drug Store; and

    •    computed cost adjustments for nursing and group homes and coordinated the results of
         our audit with Houston and State agency representatives.

1
 Schedule D is a schedule of revenue, which is used to report all revenue from facility operations, including routine
and ancillary revenue from all payor sources.


                                                          3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Houston’s Medicaid financial reports for CYs 2003 through 2005 did not accurately reflect
incurred costs that were in accordance with Federal and State requirements. Houston did not
accurately report costs totaling $194,407 on its nursing and group homes and home office
financial reports. Specifically, Houston:

   •   reported $115,544 in unallowable costs,

   •   reported $52,696 for costs that were not allocable because they were not related to patient
       care, and

   •   misclassified reported costs totaling $16,986 and did not report allowable costs totaling
       $9,181 due to clerical errors.

In addition, Houston’s financial reports included potentially unallowable related-party
transactions totaling $268,808 for a markup of actual costs for oxygen purchased from its
pharmacy.

The financial reports were inaccurate because Houston did not implement sufficient internal
controls and procedures to ensure that it reported Medicaid costs that were properly classified
and in compliance with Federal and State requirements.

UNALLOWABLE COSTS

Federal and State Requirements

Pursuant to section 1919(d)(4)(A) of the Social Security Act, a nursing facility must operate and
provide services in compliance with all applicable Federal, State, and local laws and regulations.

Pursuant to 405 IAC 1-4.3-1(b), legal fees, expenses related to expert witnesses, accounting fees,
and other consulting fees shall not be reimbursed by the office as reasonably related medical
expenses under the Medicaid program if the expenses are incurred as the result of an
administrative or judicial action or proceeding against any agency of the state or the federal
government.

Pursuant to 405 IAC 1-14.6-14(e), the cost of a single asset or collection of like assets, acquired
in quantity, including permanent betterment or improvements, has at the time of acquisition an




                                                 4
estimated useful life of at least 3 years and a historical cost of at least $500, shall be capitalized
and included in the property basis for the approved useful life of the asset.

Pursuant to 405 IAC 1-12-3(b) and 405 IAC 1-14.6-3(b), a provider must maintain accounting
records that establish an audit trail from those records to the financial reports submitted to the
State agency. Also, 405 IAC 1-12-2(z) and 405 IAC 1-14.6-2(bb) state that a reasonable
allowable cost is the price a prudent, cost-conscious buyer would pay a willing seller for goods
or services in an arm’s length transaction. 2

Unallowable Costs Reported

Houston reported $115,544 for unallowable costs related to legal fees, real estate and property
taxes, equipment not capitalized, and a traffic ticket on its financial reports for CYs 2003 through
2005.

                         Table 2: Summary of Unallowable Costs Reported
  Unallowable
      Costs                   2003                   2004                   2005                   Total
Legal Fees                        $0                $42,125                $51,717                 $93,842
Real Estate and
Property Taxes                       0                 (320)                 11,760                  11,440
Office and
Building
Equipment Not
Capitalized                    3,248                  6,547                      0                   9,795
Traffic Ticket                     0                      0                    467                     467
Total                         $3,248                $48,352                $63,944                $115,544

Legal Fees

Houston reported unallowable costs totaling $93,842 on Ben Hur nursing home’s financial
reports ($37,715 for 2004 and $51,717 for 2005) and the 2004 Home Office financial report
($4,410) for legal fees associated with a 2004 Indiana State Department of Health survey that
gave the Ben Hur nursing home an unsatisfactory rating. As a result of the survey, CMS
imposed civil monetary penalties on Houston. Houston did not provide adequate documentation
to indicate that these fees were not incurred as a result of an administrative or judicial action or
proceeding against an agency of the state or federal government.

Pursuant to 405 IAC 1-4.3-1(b), the legal fees associated with the 2004 survey were unallowable.




2
 These regulations were in effect during our audit period. Regulations at 405 IAC 1-12-2(z) and 405 IAC 1-14.6-
2(bb) were amended on October 10, 2002 and July 29, 2003, respectively and are now located at 405 IAC 1-12-
2(bb) and 405 IAC 1-14.6-2(cc).


                                                        5
Unsupported Real Estate and Property Taxes

Houston overstated real estate and property taxes by $11,440 on the Ben Hur nursing home
financial report ($169 for 2004 and $8,731 for 2005) and on the Williamsburg nursing home
financial report (($489) for 2004 and $3,029 for 2005). These costs were unallowable because
the reported taxes were not supported by the tax statements.

Office and Building Equipment Not Capitalized

Pursuant to 405 IAC 1-14.6-14(e), the cost of assets over $500 is required to be capitalized.
Houston reported unallowable costs totaling $9,795 for office and building equipment that
should have been capitalized on the nursing homes and home office financial reports. The office
and building equipment included: $2,344 for repairing a nurse station alarm system; $1,821 for a
time clock system; $1,409 for a steel door; $1,375 for sprinkler system repairs; $973 for building
expenses; $953 for purchase of a computer; and $920 for a mobile phone.

               Table 3: Unallowable Office and Building Equipment Costs
Financial Report         2003             2004              2005                        Total
Williamsburg            $2,328           $4,726               $0                        $7,054
Ben Hur                      0            1,821                0                         1,821
Home Office                920                0                0                          $920
Total                   $3,248           $6,547               $0                        $9,795

The cost of these assets exceeded $500 and therefore, should have been capitalized.

Traffic Ticket

Houston reported $467 on the Williamsburg nursing home 2005 financial report for a traffic
ticket on its laundry truck. Pursuant to section 1919(d)(4)(A) of the Social Security Act, this cost
is unallowable because Houston did not operate the truck in compliance with all Federal, State,
and local laws and regulations.

COSTS NOT ALLOCABLE AND RELATED TO PATIENT CARE

State Requirements

For reporting allocable costs, 405 IAC 1-14.6-10(b) states that the provider shall report as patient
care costs only costs that have been incurred in the providing of patient care services. The
provider shall certify on all financial reports that costs not related to patient care have been
separately identified on the financial report.

Costs Not Allocable to Medicaid-Related Facilities and Activities

Houston reported $52,696 in expenses that were not allocable to its Medicaid-related facilities
because the costs were not related to patient care services. These costs included personal
mortgage interest, expenses related to Houston’s non-Medicaid facilities, utility expenses for the


                                                 6
Village Drug Store, lease payments for a personal vehicle, utility and inspection expenses for a
non-operational facility, costs for vehicles not used for patient care, and employee overtime paid
for hours not associated with patient care.

                          Table 4: Summary of Costs Not Allocable
      Costs               2003           2004               2005                       Total
Mortgage
Interest and
Insurance For
Rental Properties        $4,445               $8,225              $7,384              $20,054
Non-Medicaid
Facilities                   64              11,840                  250               12,154
Village Drug
Store Utilities           1,416               1,483                1,568                4,467
Personal Vehicle
Lease                          0              6,581                    0                6,581
Non-Operational
Facility                     26                 375                3,513                3,914
Vehicles Not
Used For Patient
Care                        534               1,060                1,151                2,745
Overtime Paid
Not Associated
With Patient
Care                      1,080               1,060                 641                2,781
 Total                   $7,565             $30,624             $14,507              $52,696

Mortgage Interest and Insurance for Rental Properties

Houston reported $20,054 on the home office and Ben Hur nursing home financial reports for
mortgage interest ($8,588) and insurance policies ($11,466) for rental properties.

             Table 5: Mortgage Interest and Insurance Costs Not Allocable
Financial Report       2003               2004              2005           Total
Home Office             $263             $5,561           $5,642          $11,466
Ben Hur                4,182              2,664             1,742           8,588
Total                 $4,445             $8,225           $7,384          $20,054

Since these costs were unrelated to Medicaid patient care, the costs were not allocable to
Houston’s Medicaid activities.

Non-Medicaid-Related Facilities

Houston reported $12,154 on the home office financial reports for raw food expenses ($11,840),
bonuses ($250), and repairs ($64) related to Houston’s private, non-Medicaid-related facilities
for CYs 2003 through 2005.


                                                7
                     Table 6: Non-Medicaid Facilities Costs Not Allocable
Costs                      2003             2004                2005                   Total
Raw Food                      $0          $11,840                  $0                 $11,840
Bonuses                        0                 0               250                      250
Repairs                       64                 0                  0                      64
Total                        $64          $11,840               $250                  $12,154

Since these costs were not related to Medicaid patient care, the costs were not allocable to
Houston’s Medicaid activities.

Village Drug Store

Houston reported $4,467 on the Ben Hur nursing home financial reports for CYs 2003 ($1,416),
2004 ($1,483), and 2005 ($1,568) for the Village Drug Store’s utility expenses which were not
directly associated with Medicaid patient care activities. Since these costs were not related to
Medicaid patient care, the costs were not allocable to Houston’s Medicaid financial reports.

Owner’s Personal Vehicle

Houston did not remove $6,581 from the Ben Hur nursing home financial report for 2004 for
lease payments related to a personal vehicle. The vehicle was registered in the owner’s name
and not Ben Hur. Since these costs were not related to Medicaid patient care, the costs were not
allocable to Houston’s Medicaid financial report.

Non-Operational Facility

Houston reported $3,914 on the Ben Hur nursing home financial reports for 2003 ($26), 2004
($375) and 2005 ($3,513) for utility expenses and inspections related to a non-operational
facility, which Houston had closed in 2002. Since these costs were not related to Medicaid
patient care, the costs were not allocable to Houston’s Medicaid financial reports.

Vehicles Not Used for Patient Care

Houston reported $2,745 related to vehicles costs on the home office financial reports for CYs
2003 through 2005 and on the Williamsburg nursing home financial reports for CYs 2004 and
2005. The costs included license plates for vehicles that were registered to Ben Hur nursing
home, but were not used for patient care.




                                                 8
        Table 7: Costs Reported for Vehicles Unrelated to Medicaid Patient Care
Financial Report and
Associated Expenses       2003            2004              2005             Total
Home Office -License
Plates                   $534              $537              $679          $1,750
Williamsburg -License
Plates                       0              523               472             995
Total                    $534            $1,060            $1,151          $2,745

Since these costs were not related to Medicaid patient care, the costs were not allocable to
Houston’s Medicaid financial reports.

Employee Overtime and Materials Not Related to Patient Care

Houston reported $2,781 for employees’ paid overtime for hours not associated with patient care
and returned employee materials.

          Table 8: Overtime and Materials Unrelated to Medicaid-Patient Care
 Financial Report and
 Associated Expenses        2003           2004             2005             Total
Williamsburg –
Overtime                  $1,017            $946            $521            $2,484
Ben Hur -
Overtime                      43             114               88              245
Home Office -
Overtime                       0               0               32               32
Williamsburg -
Employee Materials            20               0                0               20
Total                     $1,080          $1,060            $641            $2,781

Since these costs were not related to Medicaid patient care, the costs were not allocable to
Houston’s Medicaid financial reports.

MISCLASSIFIED REPORTED COSTS AND UNREPORTED COSTS

State Requirements

State regulations (405 IAC 1-12-3(a) and 405 IAC 1-14.6-3(a)) require that providers adhere to
generally accepted accounting principles, which requires accurate and consistent classification of
financial information.

Misclassified and Unreported Costs

Houston incorrectly classified costs totaling $16,986 and did not report allowable costs totaling
$9,181 on the Medicaid financial reports. Specifically, Houston:



                                                 9
   •   incorrectly reported $7,668 for drugs and vaccines as routine medical supplies, which
       should have been reported as pharmacy or drug expenses on the 2005 financial reports for
       Ben Hur nursing home ($5,074) and Williamsburg nursing home ($2,594);

   •   reported $4,815 for interest and depreciation expenses on the incorrect line on the Ben
       Hur nursing home financial report for 2004;

   •   incorrectly reported $4,503 for utilities expenses on the Ben Hur nursing home financial
       report instead of the five group homes and the home office financial reports for 2003
       ($1,416), 2004 ($1,519), and 2005 ($1,568); and

   •   did not report $9,181 for allowable costs on the Williamsburg nursing home financial
       reports for 2003 ($1,603), 2004 ($5,570), and 2005 ($1,801) and on Market Hall group
       home financial report for 2004 ($207) due to clerical errors.

POTENTIALLY UNALLOWABLE RELATED-PARTY TRANSACTIONS

State Requirements

Pursuant to 405 IAC 1-14.6-11(a), costs applicable to services, facilities, and supplies furnished
to the provider by organizations related to the provider by common ownership or control may be
included in the allowable cost in the unit of service of the provider at the cost to the related
organization. However, such costs must not exceed the price of comparable services, facilities,
or supplies that could be purchased elsewhere in an arm’s-length transaction.

Pursuant to 405 IAC 1-14.6-11(e) an exception shall be granted when a related organization
meets conditions including a sufficient part of the supplying organization's business activity is
transacted with other than the provider and organizations related to the supplier in common
ownership or control, and there is an open competitive market for the type of services, facilities,
or supplies furnished by the organization.

Oxygen Purchases

Houston reported potentially unallowable markup costs totaling $268,808 for oxygen purchased
from its pharmacy, the Village Drug Store, on the Ben Hur and Williamsburg nursing home
financial reports for CYs 2003 through 2005. The State agency granted Houston a related-party
exception for its pharmacy. However, our audit showed that the majority of the pharmacy’s
business was with Houston’s nursing home residents. This appears to be contrary to the
requirements for granting a related-party exemption. We set aside the markup costs for further
review by the State agency and CMS.




                                                10
               Table 9: Markup on Village Drug Store Oxygen Purchases
Financial Report        2003             2004             2005                        Total
Ben Hur               $27,286          $19,268          $15,993                      $62,547
Williamsburg           58,111           76,403           71,747                      206,261
Total                 $85,397          $95,671          $87,740                     $268,808

HOUSTON INTERNAL CONTROLS

The financial reports were inaccurate because Houston did not implement sufficient internal
controls and procedures to ensure that it reported Medicaid costs in compliance with Federal and
State requirements.

RECOMMENDATIONS

We recommend that Houston:

   •   submit revised Medicaid financial reports for its nursing homes for CYs 2003 through
       2005 and group homes for CY 2004 to the State agency that:

           o reduce costs by $168,240 that were not allowable and allocable,

           o reclassify costs totaling 16,986, and

           o report $9,181 in allowable costs;

   •   work with the State agency and CMS to determine whether the potentially unallowable
       related-party transactions should reflect actual costs, thereby reducing reported costs by
       $268,808; and

   •   implement internal controls and procedures to ensure that Medicaid financial reports
       include costs that are properly classified and in accordance with Federal and State
       requirements.

OTHER MATTERS

Houston did not report $1.5 million in Medicare Part A revenue related to physical, speech and
occupational therapies on its nursing homes financial reports. State Medicaid financial report
instructions (guidance) require providers to report therapy revenue by actual payor source
including Medicare. The regulations at 405 IAC 1-14.6-20(b) state that the State agency or its
contractor makes an adjustment to remove costs attributable to non-Medicaid therapy services
based on an allocation of reported therapy revenues. However, the statute at Indiana Code (IC)
12-15-14-2(b) states that the State agency may not require a provider to submit non-Medicaid
revenue information in the provider’s annual historical financial report. While this revenue
information may be obtained through audits, it may not be used for public reporting purposes.
The statute conflicts with both the regulations and guidance. Since the statute takes precedence



                                                11
over regulations and guidance, we cannot recommend Houston report $1.5 million in Medicare
Part A revenues on its financial reports.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Houston generally disagreed with our findings and said
that it will determine whether it is necessary to submit revised financial reports

A summary of Houston’s comments and our related response follows. Houston’s comments are
included in their entirety as the Appendix,

Unallowable Costs

Houston Comments – Legal Fees

Houston maintained that the administrative review of survey findings was not a civil proceeding.
As a result, the associated legal fees are allowable. In addition, Houston said that it did not
report $51,717 in unallowable legal fees on the Ben Hur 2005 financial report, but removed
$58,310 in legal fees from its 2005 financial report. Consequently, Houston underreported legal
fees by $6,593.

Office of Inspector General Response – Legal Fees

Pursuant to 405 IAC 1-4.3-1(b), legal fees shall not be reimbursed if the expenses are incurred as
the result of an administrative action or proceeding against any agency of the state or federal
government.

In 2005, Houston reported $110,027 related to the 2004 survey; however, Houston properly
removed $58,310 from the financial report. The remaining $51,717 for legal fees in 2005 is
unallowable, as well as the $2,125 in survey-related legal fees reported in 2004. Houston did not
provide adequate documentation to indicate that these fees were not incurred as a result of an
administrative or judicial action or proceeding against an agency of the state or federal
government. Accordingly, reported legal fees in 2004 and 2005 are unallowable.

Costs Not Allocable and Related to Patient Care

Houston Comments – Personal Mortgage Interest and Insurance for Owner’s Personal Rental
Properties

Houston asserted that it did not report personal mortgage interest or insurance for personal rental
properties on the Medicaid financial reports. The rental properties were single family residences
owned by Ben Hur and rented to employees and non-employees. The personal property
consisted of two leased vehicles and construction equipment owned by Houston.




                                                12
Office of Inspector General Response – Personal Mortgage Interest and Insurance for Owner’s
Personal Rental Properties

We omitted the word “Personal” from the subheading for this finding. For reporting allocable
costs, 405 IAC 1-14.6-10(b) states that the provider shall report as patient care costs only costs
that have been incurred in the providing of patient care services. The provider shall certify on all
financial reports that costs not related to patient care have been separately identified on the
financial report. Per cost report instructions for Schedule E “Schedule of Expenses”, provider
adjustments must be made on Column [24] to include, but not limited to, the removal of non-
patient related costs from Columns [02] and [03].

Houston did not adjust these non related patient care costs on column [24] of the Medicaid cost
reports.

Houston Comments – Village Drug Store

Houston disagreed with the utility adjustments for the Village Drug Store for 2003 and 2005.
Houston recommended that half of these adjustments for 2003 and 2005 be reported under
“Misclassified Reported Costs” instead of “Costs Not Allocable.” Houston agreed with the
remaining adjustments.

Office of Inspector General Response – Village Drug Store

We reclassified one-half of the utility adjustments as “Misclassified Reported Costs” instead of
“Costs Not Allocable” after considering Houston’s comments.

Houston Comments – Owner’s Personal Vehicle

Houston asserted that it correctly reported the owner’s personal vehicle on the 2004 financial
report and removed $4,815 on the 2004 financial report adjustments column. Consequently,
Houston only reported $1,766 for lease payments on the 2004 financial report.

Office of Inspector General Response – Owner’s Personal Vehicle

Pursuant to 405 IAC 14.6-8(b), each facility shall be allowed only one patient care related
vehicle. The financial report instructions state that all expenses associated with non-allowable
vehicles should be removed. Per cost report instructions for Schedule E “Schedule of Expenses”,
provider adjustments must be made on Column [24] to include, but not limited to, the removal of
non-patient related costs from Columns [02] and [03] including the removal of expenses
associated with non-allowable vehicles.

We agreed that Houston removed $4,815 on the 2004 financial report; however, this amount
represented the purchased vehicle, not the leased vehicle. We considered the $4,815 as
misclassified costs. Houston made a clerical error and did not remove the leased vehicle costs
totaling $6,581 on the financial report.




                                                13
Houston Comments – Vehicles Not Used for Patient Care

Houston did not dispute the vehicle cost adjustments but disagreed with the cost of the fine for a
traffic ticket adjustment related to a patient-related laundry truck. The ticket was a result of not
displaying correct signage on the outside, unsecured fire extinguisher, horn inoperative, no
battery box cover, seat belt violation, and other various infractions.

Office of Inspector General Response – Vehicles Not Used for Patient Care

Section 1919(d)(4)(A) of the Social Security Act states a nursing facility must operate and
provide services in compliance with all applicable Federal, State, and local laws and regulations
and with accepted professional standards and principles which apply to professionals providing
services in such a facility. Houston failed to follow state laws when it received the ticket,
therefore the cost of the fine for the ticket is unallowable. We agree with Houston that the
laundry truck was a patient-related vehicle and moved the traffic ticket of $467 to the
Unallowable Cost section of the report.

Houston Comments – Employee Overtime and Materials Not Related to Patient Care

Houston disagreed that the employee hours were not associated with patient care.

Office of Inspector General Response – Employee Overtime and Materials Not Related to
Patient Care

We verified that the employee overtime costs included cleaning the owner’s house and other
activities that were not associated with patient care. These costs remain unallowable.

Potentially Unallowable Related-Party Transactions

Houston Comments – Potentially Unallowable Related-Party Transactions

Houston disagreed that the Village Drug Store did not meet the related party exception. The
State agency had determined that Houston had met the condition to qualify for a related party
exception and granted a related party exception the past several years.

Office of Inspection General Response – Potentially Unallowable Related-Party Transactions

Regulations at 405 IAC 1-14.6-11(e)(2) state that the related party exception applies if, a
sufficient part of the supplying organization’s business activity is transacted with other than the
provider and organizations related to the supplier in common ownership or control, and there is
an open and competitive market for the type of services, facilities, or supplies furnished by the
organization. However, our audit showed that the majority of Village Drug Store’s business is
comprised of Houston’s patients. This appears to be contrary to the requirements for granting a
related-party exemption. Accordingly, we set aside the oxygen markup costs for further review
by the State agency and CMS.




                                                 14
Unreported Part A Revenues

Houston Comments

Houston said that it did not report the Medicare Part A therapy revenue because Part A therapies
are not reimbursed separately from the per diem rate and thus, there is no revenue to record for
Medicaid Part A therapy services. Houston relied on the IC 12-15-14-2(b) and financial report
instructions to exclude the therapy revenue from the Medicaid financial report, since this revenue
is part of the routine income and not clearly identifiable.

Office of Inspector General Response

The statute conflicts with both the regulations and guidance, as it does not require providers to
report non-Medicaid revenue information on the Medicaid cost report. We have moved the
unreported part A revenues issue to Other Matters section of the report.




                                                15
APPENDIX
                    APPENDIX: AUDITEE COMMENTS 





                               HOUSTOi\ COMPASU:S,           I;-.;c.
                              HEALTH CARE PROVIDERS SINCE 1956 

                                  1461 SOUTH GRANT AVENUE 

                                          P.O BOX 661 

                                CRAWFORDSVILLE. INDIANA 47933 

                           PHONE: (765) 362-0905 - FAX' (765) 362·1268 





August 27, 2009


M arc Gustafson, Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Audit Services
2.33 North Michigan Avenue
Chicago, IL 60601

Re : Written comments regarding Report Kumber: 1-\-05-08-0005.3

lVfr. Gustat\oll,

Enclosed please find Houston Companies' written comments regarding the O [G draft
report entitled "Review of HOllston Compan ies Medicaid Cost Reports for Calendar
Years 200.3, 2004, and 2005 ,"

In Indiana, Yledicai<l nursing homes mllst submit cost repo11s to Myers :md Stauffer, an
independent C PA tirm contracted by Indiana to set j\'ledicaid rates for nursing homes.
Myers thoroughly l'cvic:\~s these cost rcrons and tben sets nursing homes' per diem
lvledicaid rates based on a complex payment criteria established in regulation . No cost in
a nursing home is treatcd as a pass through in Indiana. A ll costs are subject to rate
limiters, minimum occupancy thresholds, and other rate components that affect the pCI'
di em Medicaid rate, In other words. saying a pro\'ider reported $117,16-1 in L1nallo" able
cost docs not mean the provider received this amount in its rer diel11l\ledicaid rate. lfthe
per diem rates were recalculated without these costs, the rate impact would be much less.

Additionally, Indiana Medicaid nursing homes are audited routmely by an independent
CPA finn. Prior to the OK; audit, Clifton Glinder~on audited lIoliston for Calendar
Year, 2003 and 2004. The items citcd in tile OlG audit were not cited ill the Clifton
audit, even though they both auditcd 200.3-200-1 ,

FINDI1-:GS AND RECOi\l-,V IENDATIONS

   • 	 IIollston disagrees that it did not report S 1.5 million in Medicare Part i\ revcnues.
       Table 1 on rage 5 of the draft audit is not revenue, it is charge, that Houston i~
        required to bill for govemment d:lla collection purposes only, and it has no atfect
        on the amount of Medicare Part A revenue Houston received.

    • 	 HOllston agrees it reported S II ,4-1-0 in unallowable costS but does not agree the
        remaining S 105,724 is unallowable costs. Table 2 on page 6 of the draft audit
        <;ummarizes four components totaling $117.1 64. Houston agrees the Real Estate
        and Property Taxes were understated in 2004 and overstated in 2005. Houston
        disagrees the Office and Building Equipment 1\ot Capitalized was "unallowable
        costs". HOllston agrees the costs should have been capitalized but were
        misclassified and recommcnds Office and Building Equipment Not Capitalized be
        rcmoved from Table 2 and that Table 3 be reported under Misclassificd Reportcd
        Costs and Unreported Costs on page 10 of the omit audit rcport. Houston
        disagrce~ the Legal Fees and Vehicle Accident costs are lInallowable.


    • 	 Houston agrees it reported $45,120 in costs not a llocable but does not agree the
        rema ining $11,027 is not allocable. Table 4 all page S of the draft audit report
        summanzes seven components totalin g 556,147 in costs not allocabie because the
        OIG alleged they \vere not related to patient care. HOllston disagrees with the
        Village Drug Store Utilities for 2003 :md 2005. Houston recommends ~/2 of the
        Village Drug Store Utilities for 2003 and 2005 be removed from Table 4 and
        repoI1ed under Misclassified Reported Costs and Unreported Costs on page 10 of
        the draft audit report and allocated to the group home cost rcpons for 2003 and
        2005. Houston understands this I-villnot impact group borne rates for 2003 and
        2005, but the amount reported on Table:+ for 2003 and 2005 is incorrect.
        inconsistent with the method the OlG used for 2004, and misleading. Houston
        disagrees with the Personal Vehicle Lease cost. On its fjled 200.+ Cost Rep0I1
        Schedule E, Column 4, Houston reported $ 1,766 tor the leased automobile.
        Except for tilt! O\'ertimc Paid Not Associated wilh Patient Care and the traffic
        ticket, Houston agrees with the remaining components.

    • 	 Other than [he Offi.ce and Building Equipment Not Capitalized and ~'O Village
        D rug Store Utilities being reported under Misclassiticd Rep0I1ecl Costs and
        Unreported Costs Oll page 10 of the draft audit report, Houston agree::; with the
        misclassified and unreported costs due to clerical en'ors ,

Houston disagrees it tiled Cost Reports with potentially unallowable related party
transactions. As permitted by Indiana regulation. Houston requested and received a
related party exception from the State.

fJNR F;PORTED PART A REVEN1.JES

The Balanced Budget Act of 1997 mandated the implementation of a per diem
prospective payment syste m (PPS) for skilled nursing facilities (SNFs) covering all cosb
(rourine, ancillar)! and capital) related to the services furnished to beneficiaries under Pan
A of the Medicare program . Part A therapies are not reimbursed separately from the per
diem rate tllus there is no revenue to record tor Medicare Part A therapy service . The


                                              2
draft aud it report states Houston failed to report I.'> million in Medicare Part A revenu e
for therapy services during the aud it period. Houston did not receive separate
reimbursement for Medicare Part A therapy services; if it had it would have violated the
RBA of 1997 referenced above.

SNFs are required to bill for therapies and other ancillary items on a Medicare billing
foml (UB-04), but they are not reimbursed for these charges. SNFs are required to bill
inputted charges for these items for government collection purposes only: they have no
affect 011 the Medicarc Part A per diem a SNF receives. The amounts listed on Table 1
are not revenue we received providing Palt A therapy and it is inaccurate and very
misleading to list them as such.

Housto n did report Ben Hur's and Williamsburg's revenues in conformance with [C 12­
 15- 14-2 (b), 405 TAC 1-14.6-4(c) (4) as well as page 5 of the lnstnlctions for the
Medicaid Nursing Facility Financial Report (Rev. 7/06) which are attached (Exhibit 1-3).
IC 12-1S-14-2 (b) states "The office may not require a provider to submit non-Medicaid
revenue information in the provider's annual histori.cal tinancial report. " 405 rAC 1­
14.6-4(e) (4) states a provider must di sclose "Statement of all expenses and all income,
excluding non-Medicaid rOlltine income." On the .Instructions for the Medicaid Nursing
Facility Financial Report, Schedule D - Schedule of Revenue I,page 5), the bottom
paragraph states " ... Although the crite ria requires therapy, non-routine medical supply
items, and Parenteral and Enteral Nutrition (PEN ) items to be I eimbursed through the pCI'
diem rate, revenue for Medicaid therapy services, Medicaid nOll-routine medical supplies,
and Medicaid Parenteral and Enteral Nutrition (PEN) items should be reported on Line
231,232,233,234,236, and 239 using gross charges consistently applied to all paye r
types. The total amount or the Medicaid therapy. non-routi ne medical supply, and
Parenteral and Enteral Nutrition (P EN) should then be netted to zero with a contractual
adjustment on Lille 263 (Less ContractualiCharity Allow~mces)." The instructions Illake
no mention of inputting revenue lor Medicare therapy services.

The reason Houston rep0l1ed Medicare Part B tht:rapy revenue is because Part B therapy
is separately billable and isn't included in the PPS Part A per diem rate. Houston
recei ved revenue for these Part B therapy services, the revenue "vas clearly ident i liable to
th e therapy service, the revenue wasn't routine income and per the cost report instructi ons
must be reported.

UNALLOWABLE COSTS

Lega/fees

Honston disagrees with the legal tees adjustment. 48 CFR § 31.20S-47(b) is a Federal
Acquisition Regulation applicable to "contractors" like defense contractors, etc. who
were selected using the gove mment procurement plOcess. This regulation does not appl y
to Medicaid providers. The administrative review of survey tindings is not a civil
proceeding.
          Houston did not rep0l1 551, 717 in unallowable legal fees on the Ben Hur 2005 Cost
          repol1. Houston removed 558,310 in legal fees on its filed 2005 Medicaid Cost report
          Provider Adjustment Col (24), Line 9 (Exhibit 4). T he orG audit determined that figure
          should have been S51.717. Consequently, Houston under reported legal fees by $6,593
          on its filed 2005 rvledicaid Cost Repo11.

          Uil5l1fJfJorted Real   E~ta/e   !llld Proper/v 7(l.'(c.)

          Houston will not dispute the Real Estate and Property taxes adjustment. This error
          occurred due to delays in receiving our Real and Property tax statements. We based our
          Real Es tate and Property tax expense on prior year statements and received the current
          year's statcrnent~ after the companies' year ends. We did adjust Real Estate and Property
          tax expense in subsequent years to correct the over reporting in 2005 .

          (Jjflce alld Building Equipmellt Not Capiw/i::.ed

          Houston will not dispute the 011ice and Building Equipment Not Capitalized adjustments
          but recommends it be rem oved from Table 2 and that Table 3 be reported under
          Misclassitied Reported Costs and Unreported Costs on page 10 of the draft audit report.

          Vehicle Accident Costs *

          Houston did take prudent action in reducing lts total r"kdicaid cost:,. The two accidents
          were paid by Houston Group Homes anu were not submitted to our insurance call'ier
          hased on Houston's knowledge and history of the insurance industry. fIouston would
          havc been responsible to pay the deductible on both of these claims, \\hich we be lie\-e
          was S500/claim. Had Houston submitted these accidents to our carrier, we \\ould have
          init ially saved 59 on the Penn Hall accident and S I ,078 on the Pine Ridge acc ident.
          However, insurance companies offer discounts for accident fi'ec renewals so submitting
          these t\\0 minor claims would have cost us 1110re in the long lUll with incredsed premiull1s
          in future years. Insurance companies consider frequeney of claims more than they
          consider dollar amollnt of claims \\ hen determining their premium charge. Insurance
          companies request three years of claims history prior to submitting any proposal.
          Consequently, co mpanies receive very favorable premium rates \\hen claims histories
          show no claims.


          COSTS NOT ALLOCABLE AND RELATED TO PATIENT CARE

          Persolla! Alortgage Interest and Insilrance(ol' Q>vllel"s Personal Rental Properries

          On page 7, last paragraph, second sentence, it reads "These costs included personal
          mortgage interc:st" This is ll1eorrec t; there was no personal mortgage interest paid by
          any Houston company nor was therc any personal mortgage i n terc~t reponed on any
          Medicaid Cos t Report. On page 8, the sentence "Personal ivfortgage [ntere::;t and
          Insurance for Owner's Personal Rental Properties" is incOI'fect. The next sentence whi ch




*Office ofInspector General Note-Technical comments in the auditee's response to
the draft have been omitted from the final report and all appropriate changes have
been made.
        reads in part " fOf the owner's personal and rental properties" is incorrect. The next
        sentcnce which reads "Table 5: Personal ivlortgage Interest and Insurance CoSN ~ot
        AlIoc;)bl e" is incorrect. Again. the OWllCr"S did not report any personal 111011gage interest
        O[ LOwrance for personal rental properties_ [n fact, the ov.-ner'5 do not own any rt:ntal
        properties _

        The rental properties an; res idential houses that border Ben Hur and arc oWlled by Ben
        flur and are rented to employees and non-employees as ~ ingle family re~idences . The
        personal property are 2 leased vehides and construction equipment owm:u by Houston
        that was u:;ed duri llg the construction of Williamsburg, Ben fIur expansions and other
        nursing home expansions previously owncd by Houston_

        It should be noted that the reporting of the S8,588 in lvlortgage interest on the Ben Hur
        Cost report had no effect in the Medicaid calculated rate. Myers and Stauffer remove all
        Mortgage intercst in calculating the Capital Per Patient Day Costs which is used to
        calculate the Capital Component of the Medicaid Rate. The inclusion of this Mortgage
        interest did not increase the !\.1edieaid rate. I have attached the tiscal years' 2003-2005
        calculation \vorksheets from Ben Ilur's Notice of New or Adjusted )"'tedicaid Rate which
        verifies this (Exhibit 5-7).

        Non-;\-fedicaid-Relared Facililies

        Houston \\ ill not dispute the Raw Food, Bonus, and Repair adjustments. These \vere
        isolated clerical e n-ors illustrated by the fact they didn't occur in all 3 years.

        Village Dmg Store      **
        HOll~lon disagrees with the Village lJrug Store Uti lities Cldjustmcnb Cor 2003 and 2005_
        l-Iousron recommends \t2 of the adjustments for 2003 and 2005 be removed from Table 4
        and reported under Misclassit1ed Reported COStS and Unreported COSts on page 10 oftllc
        draft audit report and allocated to the group home cost reports for 2003 and 1005.
        Houston \vill not dispute the Village DlUg Store utility expense adjus tment for 2004.
        Village Drug Store rents ~/2 of an office building owned by BCll Hllr anu Group Homes
        rents the other ~i . Per the lease, Ben I fur paid for the utilit ies . Houston failed to remove
        the drug store share of utilities in its preparatlon o f the cos t rep0l1s. The lease hu') been
        amended so that the drug store and group homes pay theIr utilities directly_

        Owner's Personal Vehicle

        Regarding the Owner's Personal Vehicle, the vehicle was leased in the owner's name due
        to credit approval processing. Since Ben Hur is an S-Corp owned by one individual, the
        leasing company eithcr wanted a personal guarantee t1'om the owner ifteased by Ben Hur
        or \vantcd the owner to lease directly.

        The Cost Report illstlUctions, page 9 states Owner's Expenses are to be reported on Lines
        405 and 4 16 of the cost report. The instructions speci t1 cally list Automobile under il2


                                                       5




**Office of Inspector General Note-Technical comments in the auditee's response
to the draft have been omitted from the final report and all appropriate changes have
been made,
(Exhib it 8). Houston cOITectly reported the OWLer's automobile on Line 405 of the 2004
co~treport. Houston did remove $-L815 fro m L ine 405 on its tiled 2004 Mcdicaid Cost
Report Pf(wider Adjustments Col (24), line J 1 (Exhibit 9). Consequently, only S 1.766 of
Automobile lease pay ments was reported on the 2004 ivkdicaid Cost Report Schedule E.
column 4.

NOIl -Operatiollal FaciWI'

Houston will not dispute the Non-Operational Facility adjustments. The expenses for this
closed facility are coded to non-patient related accounts and are removed [rom the Cost
reports via the Provider Adjustments Col (24) \vorksheet. These bills were miscoded by
Accounts Payable and consequently were not removed.

Vehicles ,II/at [J5cdfo}' Paliellt Care

Houston will not dispute the vehicle costs adjustments. The license plates wcre for the
property listed above in paragraph 2. Houston disagrees with the traffic ticket
adjustment. The ticket was issued by the Indiana State Police Commercial Vehicle
Enforcement division for the laundry truck which is uscd to deliver laundry to
Williamsburg and is certainly patient related. The ticket was for not displaying correct
signage 011 the outside, unsecured fire extinguisher, hom inoperative, no battery box
cover, seat belt violation, and other various infractions. The OIG position that traffic
tickets are not allowable is not supported by any authority.

El!lployee 01'erti!l11! and 1\1aterials Nilt Related to Patient Care

1{ouston disagrees the hours were not assllCiated with patient care. HOllston utilizes the
[(ronos time card system and O\'ertime i, figured automati-:ally by the Kronos software.
Consequently, lIouston is perplexed as to why mosl ofHotlston's overtime is accurate
exct:pt for 52,761.

MISCLASSIFJED REPORTED COSTS AND U'lREPORTED COSTS

Olher than recommending the Office and BuilJing Equipme nt Not Capitalized
adjustments and '12 or tile Village Drug Store Utilities adjustments bc reported under
YlisclJssi ticd Reported Costs and Unreported Costs on p'lge 10 of the draft audit report.
HOll<;!On \villnot dispute the clerical errors adjustments.


POTENTIALLY CNALLOWABLE RE LATED-PARTY TRANSACTIONS

Ongell Purchases

HOllston disagrees with the OIG opinion th at Vill age Drug Store docs not meet the
related pariy exception. 405 lAC 1-1 4. 6-1 1e allows the State to grant a related party
exceptio n i ffollr conditions arc met (Exhibit 10- 11). For the past several }carg, the Sta te



                                               6
has determined Houston meets the four conditions and has granted Houston a related
party ex.cept ion.

When Village provides prescriptions to non-Medicare residents of the Houston t:lcilities,
its busim:ss activity is transacted with other than the providcr and organizations related to
the supplier in common ownership or control. Village is supplying prescriptions to the
res idents, not to the facilities . The residen ts do lIot have to do bu., iness with Village, they
are allowed to choose any pharmacy to provide their prescriptions (in tact, some do
utilize other pharmacies). Village docs not bill the related pany faci lities for the
prescriptions they supply to non-Medicare residents; it bills Medicare Part D, Medicaid,
other insurance, and the residents themselves. ConscqueIllly, a sufticient part of the
supplying organization's business activity is tran,ac le:d with other than the provider and
organizations related to the supplier in common ownership or controL

Village is not the only phannacyin Crawfordsville. There are several pharmacies serving
Crawfordsville; CVS, Waigrecns, vVal-MaLt and Kroger. Clearly, thcre is an open
competitive market for the supplies furnished by Village.

Village ow IS all the ox ygen tanks utili zed to deliver the oxygen to the residents and the
0[0 didn't consider the tanks' cost when they determined Village's cost. The 010 didn't
co nside:r Village 's owrhead in the: oxygen cost. The 0[0 only used the actllal Llxygeli
cost from Village's vendor.

Upon the receipt of the final audi t from the 010, HOllston will contact I'vlyers and
Staufte:r to determine whether it will be necessary to submit revised cost repOits. Should
amended cost re:pOIts be required, Houston:

   •    will   not report Medicare Part A revenues totaling $ 1.5 Milli on,
   •    will   reduce costs by 556,560 that were not allowable and allocable,
   •    will   reclassify $23,797 :lnd repolt S 18.758 in allowable costs,
   •    will   continue to submit its related party request to the State every two years, and
   •    will   re vi se its intcmal controls and procedures as needed.




Enclosures




                                                7
has determined Houston meets the four conditions and has granted Houston a related
party ex.cept ion.

When Village provides prescriptions to non-Medicare residents of the Houston t:lcilities,
its busim:ss activity is transacted with other than the providcr and organizations related to
the supplier in common ownership or control. Village is supplying prescriptions to the
res idents, not to the facilities . The residen ts do lIot have to do bu., iness with Village, they
are allowed to choose any pharmacy to provide their prescriptions (in tact, some do
utilize other pharmacies). Village docs not bill the related pany faci lities for the
prescriptions they supply to non-Medicare residents; it bills Medicare Part D, Medicaid,
other insurance, and the residents themselves. ConscqueIllly, a sufticient part of the
supplying organization's business activity is tran,ac le:d with other than the provider and
organizations related to the supplier in common ownership or controL

Village is not the only phannacyin Crawfordsville. There are several pharmacies serving
Crawfordsville; CVS, Waigrecns, vVal-MaLt and Kroger. Clearly, thcre is an open
competitive market for the supplies furnished by Village.

Village ow IS all the ox ygen tanks utili zed to deliver the oxygen to the residents and the
0[0 didn't consider the tanks' cost when they determined Village's cost. The 010 didn't
co nside:r Village 's owrhead in the: oxygen cost. The 0[0 only used the actllal Llxygeli
cost from Village's vendor.

Upon the receipt of the final audi t from the 010, HOllston will contact I'vlyers and
Staufte:r to determine whether it will be necessary to submit revised cost repOits. Should
amended cost re:pOIts be required, Houston:

   •    will   not report Medicare Part A revenues totaling $ 1.5 Milli on,
   •    will   reduce costs by 556,560 that were not allowable and allocable,
   •    will   reclassify $23,797 :lnd repolt S 18.758 in allowable costs,
   •    will   continue to submit its related party request to the State every two years, and
   •    will   re vi se its intcmal controls and procedures as needed.




Enclosures




                                                7
                                        EXHIBIT                   1


IC 12-15- 14 

   Chapter 14. Payment to Nursing Facilities 


IC 12-15-14-1 

Payment criteria; uniformity 

    Sec. l. (a) Except as provided in subsection (b), payment of
services for nursing facilities shall be determined under the same
criteria and in a unifonn manner for all facilities providing services.
   (b) In addition to reimbursement under the uniform rates of
payment developed for all nursing facilities under subsection (a):
      (I) nursing facilities that are owned and operated by a
      governmental entity may receive any additional payments that
      arc permitted under applicable federal statutes and regulations;
      and
      (2) nursing facilities that are not owned and operated by a
      governmental entity may receive any additional payments that
     are pennitted under applicable federal statutes and regulations.
   (c) Each governmental transfer or other payment mechanism that
the office implements under this chapter must maximize the amount
offederal financial participation that tbe state can obtain through the
intergovernmental transfer or other payment mechanism.
As added by P.L.2-J992. SEC. 9. Amended byP.L.J60-2001. SEC. I.

 IC 12-15-14-2
Payment of nursing facilities under 42 U.S.C. 1396a(a)(13)(A);
 non-Medicaid revenue information; complete balance sheet data
    Sec. 2. (a) Payment of nursing facility services shall be
determined in accordance with 42 U.S.C. 1396a(a)(13)(A) and any
othl!r applicable federal statutes or regulations governing such
payments.
    (b) The office may not require a provider to submit non-Medicaid
revenue information in the provider's annual historical financial
report. Non-Medicaid revenue information obtained by Medicaid
auditors in the course of their audits may not be used for public
reporting purposes.
    (c) The office may only request complete balance sheet data that
applies directly to the provider's facility. Complete balance sheet data
acquired by the office under this subsection:
      (I) is confidential; and
      (2) may only be disclosed:
          (A) in the aggregate; or
          (B) for an individual facility; 

      if the office removes all non-Medicaid data. 

    (d) The office of the secretary shall adopt rules under lC 4-22-2
to implement the reimbursement system required by this section.
As added by P.L. 2-1 992. SEC. 9. Amendedby P.L.152-1995. SEC. II;
P.L.257-1996. SEC 10; P.L.126-J998. SEC. 3; P.L.J60-2001. SEC. 2.

Ie 12-15-14-3
Repeal4!d
                                                                   EXHIBIT                     2



                              OFFICE OF THE SECRETARY OF FAMILY AND SOCIAL SERVICES

 provider to report federal income taxes for the operation unless the provider requests in writing that a different reporting period be
  used. Sucha request shall be submitted within sixty (60) days after the initial certification ofa provider. Thisoption may be exercised
 only one (I) time by a provider and must coincide with the fiscal year end for Medicare cost reporting purposes. Ifa reporting period
 other than the tax year is established, audit trails between the periods are required, including reconciliation staterrents between the
 provider's records and the annual financial report. Nursing facilities that are certified to provide Medicare-covered skillcd nursing
 facility services arc required to submit a written and electronic cost report (ECR) fi le copy ofthcir Medicare cost report that covers
 their most recently completed historical reporting period. Nursing facilities that have been granted an exemption to the Medicare
 filing requirement to submit the ECR file by the Medicare fiscal intermediary shall not be required to submit the ECR file to the
 office.
         (b) The first annual Financial Report for Nursing Facilities for a provider that has undergone a change of provider ownership
 or control through an arm's-length transaction between unrelated parties shall coincide with that provider's first fiscal year end in
 which the provider has a minimum ofsix (6) full calendar months of actual historical tinancial data. The provider shall submit their
 first annual financial report to the office not later than the last day of the fifth (5") calendar month after the close ofthe provider's
 reporting year or thirty (30) days following notification that the change of provider ownership has been reviewed by the office or
 its contractor. Nursing facilities that are certified to provide Medicare-covered skilled nursing facility services are required to submit
 a written and electronic ECR file copy of their Medicare cost report that covers their most recently completed historical repolting
 period.
         (c) The provider'S annual financial report shall be submitted using forms prescribed by the office. All data elements and
 required attachments shall be completed so as to provide full financial disclosure and shall include the following as a minimum:
        (I) Patient census data.
         (2) Statistical data.
         (3) Ownership and related party information.
         (4) Statement of all expenses and all income, excluding non-Medicaid routine income.
        (5) Detail of fixed assets and patient-related interest bearing debt.
        (6) Complete balance sheet data.
        (7) Schedule of Medicaid and private pay charges in effect on the last day of the reporting period. Private pay charges shall
        be the lowest usual and ordinary charge.
        (8) Certification by the provider tllat
                (A) the data are true, accurate, related to patient care; and
                (6) expenses not related to patient care have been clearly identified.
        (9) Certification by the preparer, ifdifferent from the provider, that the data were compiled from all information provided to
        the preparer by the provider and as such are true and accurate to the best of the preparer's knowledge.
        (10) Copy of the working trial balance that was used in the preparation of their submitted Medicare cost report.
        (d) Extension of the five (5) month filing period shall not be granted.
        (e) Failure to submit an annual financial report or Medicare cost report by nursing facilities that are certified to provide
Medicare-covered skilled nursing facility services within the time limit required shall result in the following actions:
        (I) No rate review shall be accepted or acted upon by the oftice until the delinquent reports are received.
        (2) When an annual fmancial report or Medicare cost report by nursing facilities thatare certified to provide Medicare-covered
        skilled nursing facility services is more than one (I ) calendar month past due, the rate then currently being paid to the provider
        shall be reduced by tell percent (10%), effective on the first day of the seventh (7th) month following the provider's fiscal year
        end and shall so remain until the first day of the month after the delinquent annual financial report or Medicare cost report (if
        reqUired) is received by the office. No rate adjustments will be allowed until the tirst day of the calendar quarter following
        receipt of the delinquent annual financial report. Reimbursement lost because of the penalty cannot be recovered by the
        provider. (fthe Medicare tiling deadline for submitting the Medicare cost report is delayed by the Medicare fiscal intermediary,
        and the provider fails to submit their Medicare cost report to the office on or before the due date as extended by the Medicare
        fiscal intermediary, then the ten percent( I 0%) rate reduction for untimely tiling to the office as referenced herein shall become
        effective on the first day of the month following the due date as extended by the Medicare fiscal intermediary.
        (f) Nursing facilities are required to electronically transmit MDS resident assessment information in a complete, accurate, and
timely manner. MDS resident assessment infonnation for a calendar quarter must be transmitted by the fifteenth day of the second
month following the end ofthat calendar quarter. Extension ofthe electronic MDS assessment transmission due date may be granted
by the office to a new operation attempting to submitMDS assessments for the first lime ifthe new operation is not currently enrolled


Indiana Administrative Code                                                                                                       Page 87
                                                     EXHIBIT                 3


Schedule C - Schedule of Charges

Schedule C should be completed on all financial reports submitted. Column [0 I Jshould reflect the lowest
usual and ordinary charge for private pay residents for like levels of services in effect at the report year
end (RYE). Providers should complete Column [Ol} on all applicable room configuration lines.


Schedule D - Schedule of Revenue

Schedule D should disclose all revenues from the facility's operation, and should reconcile to the provider's
financial records, including the working trial balance. Routine and ancillary revenues from all payer
sources should be reported on the appropriate lines and columns. Income that should be offset against a
related expense must also be reported, and question [2681O} should be answered at the bottom of Schedule
D. Submit a schedule detailing the Schedule Eline number(s) against which these revenues should be or
have been offset.

The revenues reported in Column [06J (Total) should be allocated between Columns [07) (Nursing Facility)
and [08J (Other) based upon the gross amount charged to each resident classification. For example, if an
assisted living resident generates gross charges for routine daily service, the associates revenues should be
reported in Column [08J (Other.)

        Line 211 -- Routine Daily Service Routine daily service revenue should be reported in the
        appropriate columns as gross revenue by the primary payer source (i.e., if the primary payor is
        Medicare and the Medicaid program pays for co-insurance, then the gross routine service revenue
        should be reported in the Medicare column).

        Lines 231. 232. 233, 234. 4,36 and 239 -- Ph Ysical ,(heraDY. Soec;ch aod Audiology Therapy.
       OccupatiDnal Theraay. Respi~!QlY....TheraI2Y. Sale afNoD-Rout ine Medical Supplies and Parenteral
       and Enteral Nutrition <PEl'll     Therapy revenue, non-romine medical supply revenue, and'
       Parenteral and Enteral Nutrition (PEN) should be reported in the appropriate column by actual
       payment source (i.e., Medicaid, Medicare Part A and Part B, Private Payor Other). Although the
       criteria requires therapy, non-routine medical supply items, and Parenteral and Enteral Nutrition
       (PEN) items to be reimbursed through the per diem rate, revenue for Medicaid therapy services,
       Medicaid non-routinemedical supplies, and Medicaid Parenteral and Enteral Nutrition (PEN) items
       should be reported in Column [0 I) using gross charges consistently applied to all payer types. The
       total amount of the Medicaid therapy. non-routine medical supply, and Parenteral and Enteral
       Nutrition (PEN) should then be netted to zero with a contractual adjustment on Line 263 (Less
       Contractual/Charity Allowances).

       Lines 241. 242. 243. 244 . 245. 246 and 247 - Florist. Barber/Beauty ShOJI. Vending Machinel,
       Personal Purchases. Meals Sold to Guest and Employe~s . Activity Sales. Investment IIll'o!lle ­
       Interest & Dividends Total revenue for these lines must be reported, however the total revenue
       may be combined and reported in column [05] Other.




                                                    5                                        (Rev. 8/98)
                                                        EXHIBIT               4
DHE '05
PROVIDER ADJUSTMENT Col [241
Provider adjustments consists of allocations from the home omce
and adjustments to expenses. The following adjustments to accounts
are made. the subsequent worksheets summarizes these and the home
office allocations.

Description                                        Line      .tl2Y!!         Amount
1. Remove Contributions #9590                          398                          (25)
2. Remove Promotional Advert. #8802 & #8804            392                      (4,765)
3. Offset Interest Expense with Interest Income        401                          (15)
4. Offset HDI Laundry Costs #8160                      341       (7,587)       (70,512)
5. Remove Vending #8070                                457                         (74)
6. Remove Non-Pat Related Owner Exp #9018              405                      (7,768)
7. Remove Non-Pat Related R&M #9630                    353                            0
8. Remove Houston Co. Service Fees #8660               406                    (177,885)
9. Remove Legal Fees                                   391                     (58,310)
10. Non-Patient Related Meals #9178                    394                        (204)
11. Offset Garnishment Revenue #4991                   407                        (610)
12. Offset Pharmacy Service #4865                      316                        (655)
13. Offset Day Care Rev. #4350 to Aides                314                             0
14. Remove R1E Tax Grant & Ardmore #8441               373                        (6,145)
15. Remove Non-Oed. IHCNAHCNHOPE Dues                  396                          (160)
16. Remove Non-Pat Related Apts R&M #8371              353                        (3,671)
17. Remove Non-Pat Related Apt Utilities #8561         352                             0
18. Remove Non-Pat Related Travel #9177                394                             0
19. Remove Tax Penalties                               407                             0
20. Remove G/A - Apartments #9791                      407                             0
21. Remove Grant & Ardmore Depreciation                362                        (5,206)
22. Remove Houston Unit Exp~nses
      Plant Operations: Contracted                     353                      (1.356)
      Utilities                                        352                     (14,843)
      Mortgage Interest                                361                     (27,060)
      Real Estate Tax                                  373                      (9,915)
      Salaries-Plant Operation                         351                          (13)
      Plant Operations-Supplies                        357                          (30)
      Repair-Building                                  353                        (434)
      Depreciation-Building                            362                     (47.141 )
      Depreciation-Equipment                           363                      (6,262)
23. Remove Owner's Vehicle Exp-Depreciation            363                     (10.271 )
24. Remove Owner's Vehicle Exp-Interest                361                      (1,685)
25. Offset Misc. Inc. for Misc. Office Supplies        397                             a
26. Offset Misc. Income for Medicare interest          401                             0
27. Offset Misc. Income for Employee Education         407                         (500)
28. Offset Misc. (ncome for Patronage Dividend         318                         (726)
29. Offset Misc. Income for Employee Testing           407                         (112)
                                                             --_.._..._­     - -- --
                                                                  (7,587)    (456,354)
                                                             :;:=::;:=====   --------
                                                                             -------­


                                                  20
EXHIBIT                  5

                                           MYERS AND STAUFFER LC                                      Page:     7
                                         Indiana Medicaid Rate Settiag Contractor                     08/2412005

 Provider Name:          BEN HUR HOME, INC. 	                                           Report Year End: 1213112003
 AIM Number:             100275290                  COST PROFlLE
                                     &hedule o/Expenses: 0110111003 through 1213112003
                                                                                           IDfiated
Line                                                     Reported         Rate Setter     Adjusted Alloc             Per
No.                   Description                        Expense          Adjustments     Expense      Basis        Diem

 CAPITAL PER PATIENT DAY COSTS

             OTIlER CAPITAL
       361   Facility Interest                             193,816    ( 193,816)                  0        0        0.00
       362 Depreciation - Building                         107,083    ( 107,083)                  0        0        0.00
       363 Depreciation - Equipment                        51,657     (     SI,657)               0        0        0 .00
       364 Lease • Building                                   2,517    (     2,517)               0        0        0.00
       365 Lease - Equipment                                  5,801          5,801)               0        0        0.00
       371   Insurance                                      15,744                           16,182        0        0.39
       372 Repairs & Maintenance                          134,206                           137,937        0        3.30
       373 Real Estate Taxes                               22,144                           22,760         0        0.54
       374 Personal Property Taxes                            1,053                           1,082        0        O.oJ
       377 'Other Capital Costs                                  0                                0        0        0.00

       378 	 Total Other Capital Costs                    534,021     ( 360,874)            177,961                 4.26
             Less Repairs and Maintenance                 134,206)               o         137,937)                 -3.30

             Total Other Capital Costs                    399,815          360,874)         40,024                  0.96
                   Less Repairs and Maintenance

             Fair Rental Value Allowance 	                                                 504,008

             Allowable Capital Costs 	                                                     544,032

             Actual Patient Days or 95% Minimum Occupancy 	                                 45,771

             Capital Per Patient Day Costs 	                                                  11.89
EXHIBIT                  6

                                            MYERS AND STAUFFER LC                                           Page:       7
                                          Indiana Medicaid Rate Setting Contractor                          Oll2412006

  Provider Name:          BEN HUR HOME, INC.                                                  ReFort Year End: 12/3112004
  AIM Number:             10027:i290                   COST PROFILE 

                                       Schedule ofExpenses:   01/0 1/2004 through 12/3!12004 

                                                                                                 Int1ated
 Line                                                         Reported          Rate Setter      Adjusted Alloc               Per
 No.                    Description                           Expense        Adjustments         Expense     Basis          Diem

 CAPITAL PER PATIENT DAY COSTS

              OTHER CAl'ITAL
        361   Facil ity Interc:st                              175,064          175,064)                0           0        0.00
        362   Depreciation - Building                          107,537     ( 107,537)                   0           0        0.00
        363   Depreciation - Equipment                          55,188      (    55,188)                0           0        0.00
        364   Lease - Building                                   2,538             2,538)               0           0        0.00
        365   Lease - Equipment                                  5,831             5,831)               0           0        0.00
        371   Insurance                                         14,127                             14,649           0       0.35
        372   Repairs & Maintenance                            150,239                            155,788           0        3.77
        373   Real Estate Taxes                                 11,792                             12,228           0       0.30
        374   Personal Property Taxes                            3,759                              3,898           0       0.09
        377   Other Capital Costs                                    0                                  0           0       0.00
                                                                                                                        ----
        378 	 Total Other Capital Costs                        526,075          346,158)          186,563                   4.52
              Less Repairs and l'vlaintenance                 150,239)                 o         155,788)                   -3 .77

              Total Other Capital Costs                        375,836          346,158)          30,775                    0.75
                    Less Repairs a:1d Maintenance

              Fair Rental Value Allowance 	                                                      562,816

              Allowable Capital Costs 	                                                          593,591

              Actual Patient Days or 95% Minimum Occupancy 	                                      45,896

              Capital Per Patient Day Costs 	                                                       12.93
EXHIBIT                        7

                                                MYERS AND STAUFFER LC                                        l'agc:       7
                                               Indiana Medicaid Rate Setting Contractor                      01102/2007

 Provider Na me:             BEN HUR HOME, INC.                                                Report Year End: 12/31 /2005
 AIM Number:                 100275290                    COST PROFILE
                                          Schedule o/Expenses: 0110112005 tfv'ough 1213112005
                                                                                                 In!1ated
Line                                                           Reported          Rate Setter     Adjusted Alloc                Per
No.                        Description                         Expense           Adjustments     Expense Basis                Diem

CAPITAL PER PATIENT DAY COSTS

             OTHER CAPnAL
       361   Fa~ il i ty   Interest                             153,423           153,423}               0            0       0.00
       362   Deprec iation - Building                           107,565     ( 107,565)                   0            0       0.00
       363   Depreciation - Equipment                            44,702      (    44,702)                0            0       0.00
       364   Lea se - Building                                    2,321            2,321)                0            0       0.00
       365   Lease - Equipment                                    5,664            5,664)                0            0       0.00
       371   Insurance                                            &,852                              9,172            0       0.26
       373   Real Estate Taxes                                   29,070                            30,120             0       0.85
       374   Personal Property        Ta)(~s                      8,150                              8,444            0       0.24
       377   Other Capital Costs                                      o                                                       0.00

      378    Total Other Capital Costs                          359,747     ( 313,675)
                                                                                                        °
                                                                                                   47,736
                                                                                                                      0

                                                                                                                              1.34




             Fair Rental Value Allowance                                                          542,504

             Allowable Capital Costs                                                              590,240

             Actual Patient Days or 95% Minimum Occupancy                                          41,610

             Capital Per Patient Day Costs                                                          14.19
                                                  EXHIBIT               8



 government, these costs should be identified by Schedule .b Ime an<! cOlumn numoer as all
 attadlment to the financial report. In accordance with 405 lAC 1-4.3, these costs shall not be
 reimbursed as reasonably related medical expenses, and should be removed by the provider in
 Column (24}.

 Lines 392 and 393 -- Advertising All advertising costs, except for help wanted advertising, should
 be' reported on Line 392 (Advertising - All Other). Reasonable help wanted advertising is an
 allowable cost and should be reported on Line 393 (Advertising - Help Wanted). In accordance
 with 405 lAC 1-14.6-8(a), except for those advertising costs incurred in the recruitment of facility
 persolUlel necessary for compliance with facility certification requirements, advertising costs are
 not allowable costs and should be eliminated by the provider in Column (24} of Line 392.

 Line 394 -- Travel Report on Line 394 (Travel Expenses) only the reasonable patient-related
 travel costs of personnel that are not owners. Owner travel that is reasonable and patient-related
 should be reported on line 405 (Owner's Expense).

Lines 405 and 4 16 -- Owner's Exw:nse$ Report on these two lines the cost of owner's expenses.
Generally, the cost of discriminatory employee benefits for owners should be reported on line 416
(Owners' Benefits) and all other owner's expenses reported on Line 405 (Owners' Expense).
Discriminatory employee benefits are those that tend to benefit owners proportionately more than
other personnel. The entire cost of the following items that relate to owners should be reported
on the applicable Line 405 or 416:

I. 	    Travel, entertainment and continuing education
2. 	    Automobile, aircraft, travel and transportation allowances and related costs
3. 	    Employee benefits except benefits available to all employees on a 

        nondiscriminatory basis 

4. 	    Cost of life insurance above the amount causing an employee to recognize taxable 

        income 

5. 	    Employee benefits or expense reimbursements that cause an employee to recognize 

        taxable income 


Line 406 -- Consultant Fees In order for an item to be reported on this line, the consultant shall
not be included in the definition or owner, related party, management or consultant at 405 lAC 1­
14.6-18(a). Line 406 (Consultanl Fees) is intended for reporting the cost of independent
contractors that are not parties related to the facility, that provide general and administrative
services related to patient care that are not normally provided in-house by employees of the
facility, and where the consultant and consultant's employees lack the ability to implement. No
other expense items should be reported on Ihis line. The costs of management agreements should
not be reported on Line 406, but should be reported on Line 383. A detailed listing of consultant
fees must be reported in Schedule H - Consultanl Fees.

Lines 411.412 413. 4 14. 415 and 417 -- Employee Ben~.!i Employee benefits should be
reported on the line that is most descriptive of the benefit provided. Only benefits that are
available to all employees on a nondiscriminatory basis should be reported 011 Lines 411 (Payroll
Taxes), 412 (Health Insurance), 413 (Life Insurance - Not in Excess of Limits), 414 (Workers'
Compensation), 415 (Qualifying Pensions) and 417 (Other Qualifying Benefits). Discriminatory
benefits should be reported on Line 416 (Owners' Benefits).

                                             9	                                      (Rev. 8/98)
                                                                                EXHIBIT          9

DHE '04
PROVIDER AQJUSTMENT Co/ C24 r
Provider adjustments consists of allocations from the home office
and adjustments to expenses. The following adjustments to accounts
are made, the subsequent worksheets summarizes these and the home
office ellocations.

Description                                        Line           !:!9.!!!:.§    Amount
1. Remove Contributions #9590                          398                            (227)
2. Remove Promotional Advert. #8802 & #8804            392                          (7,438)
3. Offset Interest Expense with Interest Income        401                             (72)
5. Offset Vending Sales to Expense #4870               333                            (916)
6. Remove Non-Pat Related Owner Exp #9018              405                          (2,067)
7. Remove Non-Pat Related R&M #9630                    372                               0
8. Remove Houston Co. Service Fees #8660               406                        (261,338)
10. Offset Food Sales to Food Expense #4750            333                             (12)
11. Non-Patient Related Meals #9178                    394                             (20)
12. Offset Garnishment Revenue #4991                   407                            (417)
13. Offset Pharmacy Service #4865                      316                          (1,390)
14. Offset Day Care Rev. #4350 to Aides                314                             (38)
15. Offset Personal Purchases Income #4860             318                          (1,280)
18. Remove RlE: Tax Grant & Ardmore #8441              373                          (4,516)
19. Remove Nonded. IHCAlAHCAlHOPE Dues                 396                            (554)
20. Remove Non-Pat Related Apts R&M #8371              372                            (330)
21. Remove Non-Pat Related Apt Utilities #8561         352                            (128)
23. Remove Non-Pat Related Travel #9177                394                               0
24. Remove Tax Penalties                              407                               (1)
26. Remove G/A - Apartments #9791                     407                              (17)
27. Remove Grant & Ardmore Depreciation                362                          (5,221)
30. Remove Houston Unit Expenses
      Plant Operations: Contracted                    372                              (554)
      Utilit:es                                       352                          (12,988)
      Mortgage Interest                               361                          (30,299)
      Real Estate Tax                                 373                            (8.766)
      Depreciation-Building                           362                           (47,270)
      Depreciation-Equipment                          363                            (6,280)
31. Remove Owners Vehicle Exp-Interllst & Oepr.       405                            (4,815)
32. Offset Misc. Ir,c. for Misc. Office Supplies      397                               (49)
33. Offset Misc. Income for Medicare interest         401                                 0
34. Offset Misc. Income Employee Mantoux              407                                (4)
35. Offset Misc. Income for Patronage Dividend        318                              (501)
36. Offset Misc. Income for Employee Testing          407                              (120)
37. Offset HDI Laundry Costs #8160                    341           (8,702)        (71,634)
                                                             .   _--_ ....---    -------- ....
TOTAL ADJUSTMENTS                                                   (8,702)       (469,261)
                                                             ========            === ====




                                                                                                  4/25/2005, 10:36 AM
                                                                               EXHIBIT                      10 



                             OFFICE OF THE SECRETARY OF FAMILY AND SOCIAL SERVICES

             Percentage                                          100%                                            80%
       (5) For the thcrapy component, no overall rate component limit shall apply.
       (d) In orderto determine the normali7.ed allowable direct care cosls from each facility's Financial Report for Nursing Facilities,
the office or its contractor s ....all determine each facility's CMI for all residents on a time-weighted basis.
       (e) The office shall publish guidelines for use in determining the time-weighted CMI. These guidelincs:
       (I) shall be published as a provider bulletin; and
       (2) may be updated by the office as needed.
Any such updates shall be made effective no earlier than permitted under IC 12-15-13-6(a). (Office ofthe Secretary ofFamily and
Social Sen'ices; 405 lAC 1-14.6-9;jiledAug 12. 1998. 2:27p.m.: 22 JR 75. ejJOc/l. 1998;jiled .Har 2, 1999,4:42 p.m.: 221R 2244;
readoptedjiledJun 27.2001, 9:40a.m.:24IR 382};jiled Mar 18. 200), 3:30 p.m.: 25lR 2470;jiledOctI0. 2002. 10:47 a.n~ : 26
lR 714; jiled Jul 29. 2003. 4:00 p.m.: 26lR 3874;jiledApr 24.2006.3:30 p.m: 291R 2980)

405 lAC 1-14.6-10     Com putation of ratc; allowable costs; review of cost reasonableness
     Authority: IC 12-8-6-5; Ie 12- 15-1-10; Ie 12-15-21-2
     Affected: IC 12-13-7-3; Ie 12-15

       Sec. 10. (a) Costs and revenues, excluding non-Medicaid routine revenue. shall be reported as required on the financial report
forms. Allowable patient care costs shall be clearly identified.
       (b) The provider shall report as patient care cosls only costs thai have been incurred in the providing ofpalienl care services.
The provider shall certi(y on all financial reports Ihat costs nol related to patient care have been sepalately identIfied on the financial
report
       (c) In determining reasonableness of costs, the office may compare line ilems, cost centers, or total cosls of providers
throughout the state. The office or its contractors may request satisfactory documentation from providers whose costs do not appear
to be accurate or allowable.
       (d) Indiana state taxes, including local taxes, shall b~ considered an allowable cost. Personal or federal income taxes are not
considered allowable costs. (Office ofthe Secretary ofFami(v and Social Services; 405 lAC 1-14.6-IO:jiledAug 12, 1998. 2:27p.m.:
22lR 76. ejJOc/ I. 1998;jiled Mar 2.1999.4:42 p.m.: 221R 1245; readoptedjiledJun 27.2001. 9:40a.m.: 24lR 3822)

405 lAC 1-14.6-11     AUowable costs ; services provided by parties related to the provider
     Authority: IC 12-8-6-5; IC 12-15-1-10; Ie 12-15-21-2
     Affected: IC 12-13-7-3; Ie 12-15

       Sec. II (a) Costs applicable [0 services, facilities, and supplies furnished to the provider by organizations rela ted to the
provider by common ownership or control may be included in the allowable cost in the unit of service of the provider at the cost to
the related organization. However, such cost must not exceed the price of comparable services, facilities, Of supplies that could be
purchased elsewhere in an arm's-length transaction.
       (b) Common ownership exists when an individual, individuals, or any legal entity possesses ownership or equity of at least
five percent (5%) in the provider as well as the institution or organization serving the provider. An individual is considered to own
the interest ofimmediate lamily for the determination ofpercentage of ownership. The following pcrsons are considered immediate
family:
       (1) Husband and wife.
       (2) Natural parent, child, and sibling.
       (3) Adopted child and adoptive parent.
       (4) Stepparent, stepchild, stepsister, and stepbrother.
       (5) Father-in-law, mother-in-law. sister-in-law, brother-in-law, son-in-law, and daughter-in-law.
       (6) Grandparent and grandchild.
       (c) Control exists where an individual or an organization has the power, directly or indirectly, to influence or direct the actions
or policies ofan organization or institution, whether or not actually exercised. A general partner is considered to control an entity.
       (d) Transactions between related parties are not considered to have arisen through arm's-length negotiations. Costs applicable
to services. facilities, and supplies furnished to a provider by related parties shall not exceed the lower ofthe cost to the related party,
or the price of comparable services, facilities, or supplies purchased elsewhere. An exception to this subsection may be granted by


Indiana Administrative Code                                                                                                        Page 95
                                                                             EXHIBIT                      11 



                              OFfiCE OF THE SECRETARY OF FAMILY AND SOCIAL SERVICES

 the office if requested in writing by the provider before the annual rate review effective date to which the exception is to apply. The
 provider's request shall include a comprehensive repn:sentation that every condition in subsection (e) has been met. This
 representation shall include, but not be limited to, the percentage of'ousiness the provider transacts with related and nonrelated parties
 based upon revenue. When requested by the office, documentation to substantiate the provider's charges for services, facilities, or
 supplies to related and nonrelated parties, ,uch as invoices, standard charge master listings, and remittances, must be submitted.
        (e) The office shall grant an exception when a related organization meets all ofthe following conditions:
        (I) The supplying organization is a bona tide separate organization.
        (2) A sufficient part of the supplying organization's business activity is transacted with other than the provider and
        organizations related to the supplier in common ownership or control, and there is an open competitive market for the type
        of services, facilities, or supplies furnished by the organization.
        (3) The services, supplies, or facilities are those that commonly are obtained by institutions, such as the provider, from other
        organizations and are not a basic element of patient care ordinarily furnished directly to patients by such institutions.
        (4) The charge to the provider is in line with the charge for such services, facilities, or supplies in the open market and no more
        than the charge made under comparable circumstances to others by the orgaOlzation for such services, facilities, or supplies.
 (Office ofthe Secretary o/Familyand Social Services; 405 fAC 1-14.6-Il;filedAug f2, 1998, 2:27p.m.: 22IR 76. effOct I. 1998:
/Lied Mar 2. 1999. 4: 42 p.m. : 22 IR 2245; readoptedfifed Jun 27, 2001. 9:40 a.m.: UIR 3822)

405 lAC 1-14.6-12      AUowable costs; fair rental value allowance 

       Authority: Ie 12-8-6-5; IC 12-15-1-10; IC 12-\5-21-2 

       Affected: IC 12-13-7-3; IC 12-15 


        Sec. 12. Providers shall be reimbursed for the use ofallowable patient-related facilities and equipment, regardless of whether
 they are owned or leased, by means of a fair rental value allowance. The fair rental value allowance shall be in lieu of the costs of
 all depreciation, interest,lease. rent, or other consideration paid for the use ofproperty. This includes all central office facilities and
 equipment whose patient care-related depreciation, interest, or lease expense is appropriately allocated to the facility.
        (I) The fair rental value allowance is calculated by determining, on a per bed basis, the historical cost of allowable patient­
        related property for facilities that are not acquired through an operating lease arrangement, including:
               (A) land, building, improvements, vehicles, and equipment; and
               (8) costs;
        required to be capitalized in accordance with generally accepted accounting principles. Land. buildings, and improvements
        shall be adjusted for changes in valuation by inflating the reported allowable patient-related historical c~st ofproperty from
        the later of July I, 1976, or the date of facility acquisition to the present based on the change in the R. S. Means Construction
        Index.
        (2) The inflation-adjusted historical cost ofproperty per bed as determined above is arrayed to arrive at the average historical
        cost of property of the median bed.
        (3) The average historical cost of property of the median bed as determined above is extended times the number ofbeds for
        each facility that are used to provide nursing facility services to arrive at the fair rental value amount.
        (4) The fair rental value amount is extended by a rental rate to arrive at the fair rental allowance. The rental rate shall be a
        simplc average ofthe United States Treasury bond, ten (10) year amortization, constant maturity rate plus three percent (3%),
        In effect on the tirst day of the month that the index is published for each of the twelve (12) months immediately preceding
        the rate effective date as detemlined in section 6(a) ofthis rule. The rental rate shall be updated quarterly on January I. April
        I, July I, and October I.
(Office ofthe Secretary ofFamily and Social Services; 405 lAC 1-14.6-12:filedAug 12. 1998.2:27 p.m.: 22lR 77. effOct 1.1998:
filedSep 1. 2000. 2:10 p.m.: 24 lR 21; readoptedfiledJlln 27.2001. 9:40 a.m.: 24IR 3822;filedOct 10. 2002.10:47 a.m.: 26lR
7/5)

405 lAC 1-14.6-13       Reporting of financing arrangements; working capital; interest; allocation of loans
       Authority: IC 12-8-6-5; IC 12-15-1-10; IC 12-15-21-2
       Affected: IC 12-13-7-3; IC 12-15

       Sec. 13. (a) All patient-related property tinancing arrangements shall be fully and completely disclosed 011 the forms prescribed


Indiana Administrative Code                                                                                                        Page 96
